<html>
<title> - THE ENVIRONMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                            THE ENVIRONMENT

=======================================================================

                               EXCERPTED

                                from the

                           2011 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov
?


                  U.S. GOVERNMENT PRINTING OFFICE
64-914                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>  

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     JEFF MERKLEY, Oregon
                                     SUSAN COLLINS, Maine
                                     JAMES RISCH, Idaho

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)
                            The Environment

                                Findings

        <bullet> China's environmental problems remain serious. 
        This year's report highlights heavy metal and growing 
        rural pollution problems. Citizens continued to express 
        their environmental grievances and sometimes protested 
        in the streets, including at a protest against a 
        chemical plant in Dalian city, Liaoning province, 
        involving over 10,000 citizens who ``took a walk'' in 
        front of government and Communist Party buildings. In 
        some cases, officials suppressed demands for a cleaner 
        environment. Local authorities detained, harassed, or 
        threatened people including parents of children 
        affected by lead poisoning in several provinces who 
        raised grievances or sought redress; citizens 
        demonstrating or complaining about landfill operations 
        in Fujian province; citizens protesting operations of a 
        waste incinerator in Jiangsu province; and citizens 
        protesting expanded mining operations in the Inner 
        Mongolia Autonomous Region and Tibetan autonomous 
        areas.
        <bullet> Corruption, noncompliance with and uneven 
        implementation and enforcement of environmental laws 
        and regulations, and the lack of legal recourse, remain 
        significant challenges for China in managing its 
        environmental problems. Sometimes environmental 
        protection authorities do not take enforcement actions 
        as required by law, and at times courts refuse to 
        accept lawsuits because of concerns over ``social 
        stability.'' Environmental protection was among the 
        areas to have the highest levels of bribery and 
        corruption in the first six months of 2010.
        <bullet> Central and some local Chinese environmental 
        protection officials have taken steps to improve 
        information disclosure. Yet, efforts to implement 
        disclosure measures remain underdeveloped. Some 
        citizens have been proactive in requesting information; 
        however, several challenges to accessing information 
        remain, including administrative provisions that limit 
        the scope of information that environmental authorities 
        can disclose. The most difficult type of information to 
        obtain in some cases is that related to polluting 
        enterprises, which has potential implications for 
        citizen health. Chinese citizens and experts have 
        expressed concern over the speed and lack of 
        transparency of developing hydroelectric and nuclear 
        power projects. The nuclear power plant disaster in 
        Japan in March 2011 appeared to embolden Chinese 
        citizens and experts to speak out about safety 
        concerns, and prompted Chinese officials to conduct a 
        safety review and consider new legislation that could 
        improve the transparency of China's nuclear industry.
        <bullet> Environmental protection remains a sector in 
        which public participation is somewhat encouraged, yet 
        officials also continue to seek to ``guide'' or manage 
        participation. A new national-level official guiding 
        opinion requires environmental groups to report on 
        their international cooperative projects with foreign 
        non-governmental entities for ``examination and 
        approval.'' The opinion also calls for the further 
        strengthening of relations and cooperation between the 
        government and social organizations, as well as greater 
        political indoctrination of environmental groups by 
        relevant authorities.
        <bullet> Top Chinese authorities reportedly consider 
        China to be vulnerable to the impacts of climate change 
        and have taken steps to mitigate and adapt to climate 
        change. Chinese leaders plan to voluntarily reduce 
        carbon dioxide intensity (i.e., emissions per unit of 
        GDP) by 17 percent by 2015. While non-governmental 
        organizations continue some activities to address 
        climate change, public participation in climate change 
        policy processes is minimal. Chinese leaders stated 
        they would improve data reliability and transparency in 
        relation to energy and climate change; however, Chinese 
        leaders face significant challenges in these areas. 
        Official Chinese measures to address climate change, as 
        well as their implementation, could place the rights of 
        citizens at risk without sufficient procedural and 
        safety protections.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call upon the Chinese government to cease 
        punishing citizens for their grassroots environmental 
        activism or for utilizing official and 
        institutionalized channels to voice their environmental 
        grievances or to protect their rights. Support efforts 
        by Chinese and U.S. groups working in China to expand 
        awareness of citizens' environmental rights and to 
        promote the protection of those rights. Projects might 
        include supporting U.S.-China discussions about 
        complaint resolution mechanisms and strengthening U.S.-
        China cooperation regarding researching and addressing 
        environmental health problems. Include environmental 
        law issues in the bilateral human rights and legal 
        expert dialogues.
        <all> Support multilateral exchanges regarding 
        environmental enforcement and compliance tools, 
        including environmental insurance, market mechanisms, 
        criminal prosecution of serious environmental 
        infringements, and public interest litigation 
        mechanisms. Encourage Chinese leaders to strengthen 
        environmental impact assessment processes and citizen 
        participation in those processes. Engage Chinese 
        officials and others who seek to devise a realistic and 
        fair compensation system for people harmed by pollution 
        in China that could aid enforcement efforts.
        <all> Support continued expansion of environmental 
        information disclosure in China. Share U.S. Government 
        experiences with the Toxics Release Inventory Program 
        and other U.S. programs that seek to provide more 
        environmental transparency. Support programs that 
        educate Chinese citizens about China's system of open 
        government information. Encourage Chinese officials to 
        make government and expert research reports regarding 
        climate change and its impacts in China public and 
        easily accessible. In addition, continue U.S. 
        Government engagement with relevant ministries, 
        academic institutions, experts, and non-governmental 
        organizations (NGOs) in developing China's capacity to 
        measure, report, publicize, and verify emissions 
        reduction strategies and techniques reliably.
        <all> Encourage the development of environmental NGOs 
        in China, including incorporating joint non-
        governmental participation in bilateral projects. 
        Support efforts to raise the technical and operational 
        capacity of Chinese environmental NGOs.
        <all> Engage local Chinese leaders in their efforts to 
        reconcile development and environmental protection 
        goals. Call upon U.S. cities with sister-city 
        relationships in China to incorporate environmental 
        rights awareness, environmental protection, and climate 
        change components into their sister-city programs. When 
        making arrangements for travel to China, request 
        meetings with officials from central and local levels 
        of the Chinese government to discuss environmental 
        governance and best practices. Invite Chinese local-
        level leaders, including those from counties, 
        townships, and villages, to the United States to 
        observe U.S. public policy practices and approaches to 
        environmental problem-solving.

                              Introduction

    During the Commission's 2011 reporting year, the Chinese 
government continued to strengthen regulatory efforts to 
address China's serious environmental problems. Inadequate 
access to information, unreliable access to legal remedies, an 
underdeveloped compensation system for individuals and groups 
harmed by pollution, uneven enforcement and lax compliance, 
corruption, and other issues, however, have contributed to the 
continuation of these serious environmental problems and to the 
potential for the infringement of citizens' rights. Chinese 
authorities have taken some steps to improve collection of 
environmental data and to expand ``open environmental 
information,'' but significant challenges remain, especially in 
relation to obtaining information on industrial pollution 
sources. Access to legal remedies also remains a challenge, and 
channels available to citizens to express environmental 
grievances are not always open, contributing to the rise of 
citizen anti-pollution demonstrations. Chinese authorities 
continued to selectively stifle environmental activism and 
environmental grievances or suppress people who were involved 
in or organized collective action to halt perceived 
environmental harms. During this reporting year, citizen 
grievances regarding hydroelectric dam construction, lead 
pollution, chemical plants, and waste incinerator and landfill 
operations were prominently covered in Chinese and foreign 
media.

   Serious Environmental Challenges: Focus on Rural and Heavy Metal 
                               Pollution

    China's environmental problems reportedly remain severe, 
despite some regulatory advances and isolated reductions in a 
limited number of pollutants.\1\ Examples highlight the 
seriousness of these problems and the legal challenges they 
pose. In October 2010, a Chinese research institute completed a 
``Green GDP'' report on the economic impacts of environmental 
pollution in China, which asserts that the economic costs of 
environmental pollution and ecological damage have risen 74.8 
percent over a five-year period from 2004 to 2008, equaling 
about 3 percent of GDP.\2\ In February 2011, a Chinese 
scholarly report revealed that 10 percent of the rice in 
markets in many cities contained cadmium levels above standard; 
soil pollution is seen as the culprit.\3\ In August, it came to 
light that the Luliang Chemicals Company dumped over 140 
truckloads, totaling over 5,200 tons, of hexavalent chromium 
slag in Yunnan province, where it could wash into the Pearl 
River via its tributaries.\4\ The chromium reportedly killed 
fish and livestock and threatens drinking water sources.\5\ The 
dumping case underscores the lack of official transparency and 
reportedly may have involved official complicity, highlighting 
governance problems.\6\ An employee of the plant reportedly 
admitted that the company had dumped or buried over 288 
thousand tons of chromium dregs between 1989 and 2003.\7\ 
Across 12 provinces, there reportedly may be 1 to 1.3 million 
tons of chromium waste (from a variety of sources) not disposed 
of properly, with some dumped in water sources and densely 
populated areas.\8\
    During this reporting year, authorities continued to 
develop regulatory instruments to manage these pollution 
problems. Chinese officials currently have reduction targets 
for only two pollutants but have announced plans to expand this 
to four in the next five-year period (2011-2015).\9\ 
Environmental officials reportedly discussed revisions to the 
Environmental Protection Law, circulated a draft for comment of 
a technical guideline for public participation in environmental 
impact assessment processes, issued the Opinions Regarding 
Initiation of Environmental Pollution Damage Assessment Work, 
which outlines the initial steps toward an environmental 
compensation system, and issued several other relevant laws, 
policies, and measures on environmental issues.\10\
    Over the past year, officials focused on growing rural 
pollution problems, which highlight ongoing challenges in 
applying the laws evenly and in protecting citizens' health, 
especially the health of children and the rural poor. 
Authorities reportedly acknowledged environmental conditions in 
many villages are still severe, partially due to the increasing 
movement of polluting enterprises from urban to village 
areas.\11\ In June 2011, a top environmental official stated 
that environmental protection efforts in rural areas lag far 
behind those in urban areas, the foundation for rural 
environmental management is weak, regulatory standards are 
incomplete, and the ability to monitor problems is 
insufficient.\12\ These problems put the health of rural 
populations at risk. In January 2011, central government 
officials announced long-term plans to address rural pollution 
challenges, primarily relying on the policy of ``using rewards 
to promote control.'' \13\ In June 2011, Chinese news reports 
further described the steps officials said they would take 
during the next five-year period.\14\ The Minister of 
Environmental Protection stated that China would ``work hard'' 
to make initial improvements in rural village environmental 
quality by 2015 and to control prominent environmental problems 
in key villages and townships across the country by 2020.\15\
    Environmental protection officials also prioritized heavy 
metal pollution problems, including lead pollution that is 
linked to cases of lead poisoning involving thousands of 
children in several provinces in 2009 and 2010.\16\ Some of 
these cases involve the violation of citizens' rights.\17\ [See 
Access to Justice and Suppression of Citizen Demands for a 
Cleaner Environment in this section for more information on 
these cases.] In response to the series of lead poisoning 
cases, authorities reportedly released a circular in May 2011 
that outlined steps to address heavy metal pollution, including 
better management and disposal of pollutants, punishment of 
violators, and enhanced transparency.\18\ However, the circular 
does not have the power of a legally binding regulation.\19\ In 
June 2011, environmental authorities launched a special 
campaign to try to reduce heavy metal pollution and asserted 
that they would use their authority to suspend approval of new 
projects in areas where heavy metal pollution cases have 
occurred.\20\ In August, the Ministry of Environmental 
Protection reportedly suspended production at 1,015 lead 
battery manufacturing, assembly, and recycling plants and made 
public the names of these plants. Authorities shut down 583 of 
the plants, but the news agency reporting the story did not 
indicate how many of the plants moved production facilities to 
other locations.\21\

  Access to Justice and Suppression of Citizen Demands for a Cleaner 
                              Environment

    Environmental problems, including heavy metal pollution, 
continued to trigger citizen grievances and demands for better 
environmental quality. In June 2011, nearly 1,000 citizens 
blocked a road protesting pollution from a battery plant in 
Heyan city, Guangdong province; one citizen reported that 10 
people were injured in the ensuing conflict between citizens 
and police and that police killed one person.\22\ In August, 
more than 10,000 citizens peacefully protested a chemical plant 
that manufactures paraxylene (PX) in Dalian city, Liaoning 
province, by ``taking a stroll,'' after a typhoon damaged an 
ocean wall protecting the plant, triggering citizen concerns 
about a chemical leak.\23\ Prior to the storm, factory workers, 
reportedly ordered by plant bosses, stopped and beat reporters 
who wanted to investigate possible impacts of a storm on 
chemical storage tanks.\24\ The story of this event reportedly 
was pulled from TV coverage.\25\ Local Communist Party and 
government leaders quickly responded to the protest and 
reportedly put the ``relocation of the plant on the government 
work agenda.'' \26\ One international press report noted that 
the government was considering closing down the plant prior to 
the protests. It also noted that the plant had been approved 
during the term of a previous Party Secretary, speculating that 
the current cohort of authorities may have had political 
motives for allowing such a large demonstration.\27\ 
Nevertheless, the Global Times, which operates under the 
official People's Daily, stated that citizens taking to the 
streets to express their views ``should not be advocated in 
China'' and that ``Chinese society objected'' to the street 
protests as evidenced by the fact that ``[r]eports on this 
incident have not gained much ground in China's mainstream 
media . . . .'' \28\
    Access to legal remedies remains unreliable, contributing 
to citizen protests, despite a growing number of specialized 
environmental courts. In 2010, regular Chinese courts completed 
12,018 environmental pollution compensation cases, an increase 
of 2.83 percent over the previous year.\29\ However, notably, a 
study by a Peking University professor reportedly found that 
courts often refuse to take cases in the name of ``social 
stability.'' \30\ One expert with an international 
environmental organization noted that Chinese lawyers said they 
believe it is more difficult to have an environmental damages 
case accepted by the courts now than in the past.\31\ The same 
expert noted that public supervision via the courts has been 
constrained in recent years, emphasizing that while litigation 
in some cases has driven legal reform or compelled a local 
government to act, it has not been as effective in stopping 
pollution problems or for compelling pollution cleanup.\32\ In 
some cases, the expert noted, litigation has led to 
compensation for citizens, but he pointed out that compensation 
is sometimes difficult to obtain due to evidentiary burdens and 
problems in proving causality.\33\ In some cases, it can be 
difficult to obtain compensation even when a party has been 
ordered to pay it.\34\ One former environmental protection 
official told a reporter that ``[w]ith limited fines and low 
compensation, breaking the law is often cheaper than following 
it . . . .'' \35\ Specialized environmental courts may still 
benefit environmental litigation, although critics reportedly 
believe they have not resolved the challenges of local 
protectionism or judicial independence.\36\ Some of these 
courts, which are growing in number, set local rules providing 
for public interest litigation cases brought by procuratorates, 
environmental agencies, non-government organizations, and 
individuals.\37\ In January 2011, the Kunming Intermediate 
People's Court in Yunnan province awarded approximately 4 
million yuan (US$626,300) compensation for citizens whose 
drinking water had been contaminated in a public interest case 
brought by the Kunming City Environmental Protection Bureau and 
supported by the city procuratorate.\38\ The Commission's 2010 
Annual Report noted a couple of these courts have accepted a 
few cases brought by the All-China Environment Federation 
(ACEF), an environmental group that is overseen by the Ministry 
of Environmental Protection; \39\ the ACEF demonstration cases 
appear to have been the only quasi-NGO or NGO public interest 
cases accepted by the courts.
    In some cases, officials suppressed citizen demands for a 
cleaner environment. The study by the Peking University 
professor reportedly found that criminal liability for 
pollution is rarely enforced and that in many cases, citizens 
exposed to environmental harms have little access to legal 
remedies and may resort to violence to pressure the polluter to 
act.\40\ Further, the study pointed out that those who use 
violence to protest pollution are often prosecuted.\41\ Some 
recent incidents of official suppression of largely peaceful 
citizen demands for a cleaner environment include the 
following:

        <bullet>  According to a June 2011 Human Rights Watch 
        Report, local officials in four provinces--Henan, 
        Hunan, Shaanxi, and Yunnan--in recent years ``imposed 
        arbitrary limits on access to blood lead testing; 
        refused appropriate treatment to children and adults 
        with critically high lead levels; withheld and failed 
        to explain test results showing unaccountable 
        improvements in lead levels; and denied the scope and 
        severity of lead poisoning.'' \42\ Other sources 
        provide additional information on cases in Hunan and 
        Shaanxi.\43\ Parents reportedly stated that local 
        police threatened some people who tried to obtain 
        information and detained or arrested individuals 
        protesting against polluting factories or seeking help 
        for their sick children.\44\ In addition, journalists, 
        including one foreign reporter, indicated they had been 
        harassed when they tried to report on some of the lead 
        poisoning cases.\45\
        <bullet>  In October 2010, over 1,000 citizens in 
        Pingnan county, Ningde city, Fujian province, signed a 
        collective petition complaining about pollution from a 
        local landfill facility \46\ following a protest that 
        resulted in the detention of four citizens.\47\ After 
        receiving no response from local government officials, 
        five village representatives took the collective 
        petition to the provincial government office of letters 
        and visits.\48\ County officials intercepted and 
        detained the representatives on suspicion of 
        ``disrupting social order.'' \49\ Their detention 
        triggered a protest by village residents.\50\ News 
        reports do not provide additional information on those 
        detained.
        <bullet>  In late 2010, authorities allegedly beat and 
        detained 17 persons who participated in protests or who 
        petitioned against proposed mining operations in Rikaze 
        (Shigatse) prefecture, Tibet Autonomous Region 
        (TAR).\51\ Also in late 2010, authorities detained over 
        20 Tibetans, some briefly, for their protest or 
        petitioning activities against a construction team said 
        to have a mining permit.\52\ In August 2010, officials 
        reportedly fired upon a group of 100 Tibetans and 
        possibly killed one to four citizens. They were 
        protesting gold-mining operations in Ganzi (Kardze) 
        Tibetan Autonomous Prefecture, Sichuan province, 
        because of the harmful environmental effects. 
        Authorities also reportedly detained 35 Tibetans in 
        this case.\53\ In July 2011, authorities in Zuogong 
        (Dzogang) county, Changdu (Chamdo) prefecture, TAR, 
        reportedly detained about 50 Tibetans because they 
        protested mining activities.\54\ Authorities reportedly 
        warned citizens that protest activities would be 
        considered ``politically motivated.'' Officials 
        detained the ``village officials'' who traveled to 
        Lhasa, the TAR capital, to ``protest'' the mining and 
        the other detentions, as well as the alleged protest 
        ``ringleaders.'' \55\ [See Section V--Tibet for more 
        information on these incidents.]
        <bullet>  In May 2011, citizens and police clashed in a 
        large-scale conflict involving as many as 10,000 \56\ 
        residents in a village in Wuxi city, Jiangsu province, 
        after residents gathered to protest the operation of a 
        waste incinerator that they have opposed since 2007 
        because they claim to have been tricked into accepting 
        it.\57\ Authorities reportedly injured several citizens 
        and took a few residents into custody,\58\ although 
        reports do not provide further information on those 
        detained.
        <bullet>  In June 2011, Mongol herders in Bayannuur 
        city, Inner Mongolia Autonomous Region, shut down the 
        water pump to a lead mine, which had expanded into 
        grazing land, after ``repeatedly petitioning the 
        government.'' \59\ Some protesters set up traditional 
        tents outside of government offices for nearly two 
        weeks.\60\ The herders believed the mine was polluting 
        the environment and endangering their health.\61\ The 
        local government sent more than 50 riot police to the 
        scene, and they reportedly beat and detained many of 
        the protesters.\62\ A group of 600 herders reportedly 
        sought compensation for pollution linked to the 
        mine.\63\ The mine reportedly agreed to compensate the 
        group with 1.2 million yuan (US$188,000), and the 
        herders ended their protest.\64\ News stories do not 
        provide further details regarding the herders detained 
        by police. The demonstration followed herder protests 
        in May linked to the death of a herder at the hands of 
        a mine worker.\65\ [See Section II--Ethnic Minority 
        Rights for more information on the May protests.]

  Hydroelectric Dam and Water Project Construction: Rights and Safety 
                             Controversies

    Increasing reliance on renewable energy and reducing 
China's carbon dioxide and other air pollutant emissions are 
among the reasons Chinese authorities cite for escalating the 
construction of hydroelectric dams.\66\ Some of these projects 
reportedly continue to raise safety concerns and include 
forcible relocation practices. To date, China has constructed 
25,800 large dams, and the associated land requisition projects 
reportedly have led to the relocation of more than 10 million 
people.\67\ Central-level authorities announced in early 2011 
that development of hydropower, including the controversial 
series of dams along the Nu River (Salween River), is a 
``must.'' \68\ Local officials rapidly built many smaller 
hydroelectric projects along the Nu River that did not need 
State Council approval over the past two years, some of which 
are in areas of relative geological instability, leading to 
heightened concerns among experts and citizens.\69\ In May 
2011, Xinhua reported that the State Council had recognized 
``urgent'' problems associated with the Three Gorges Dam.\70\ 
During the same month, the State Council Standing Committee 
passed a plan to address these issues.\71\ Estimates of the 
number of people resettled because of the Three Gorges Dam so 
far range from 1.4 million to 4 million.\72\ There have been 
numerous reports of infringements on the rights of populations 
affected by the Three Gorges Dam, including an attack on 
activist Fu Xiancai that left him paralyzed.\73\ Additional 
areas with reports of forced resettlement practices include 
Fujian, Hunan, and Yunnan provinces.\74\ In some cases, these 
resettlement practices triggered citizen protests. For example, 
in March 2011, as many as 2,000 to 3,000 citizens reportedly 
blocked roads to protest compensation levels for their homes 
and farmland in Suijiang county, Zhaotong prefecture, Yunnan 
province, to make way for the Xiangjiaba Dam along the Yangtze 
River.\75\ Authorities reportedly administratively detained 
several men for two weeks in what appeared to be punishment for 
participating in the demonstrations.\76\ Central authorities 
acknowledged problems with compensation schemes, and the PRC 
Outline of the 12th Five-Year Plan on National Economic and 
Social Development (12th Five-Year Plan) notes intended reforms 
to the land requisition system, including shrinking ``the scope 
of requisitioned land, and increas[ing] the compensation 
standard for requisitioned land.'' \77\
    The relocation of some of the 330,000 people relocated in 
Hubei and Henan provinces to make way for the central route of 
the South-to-North Water Diversion Project, which is slated for 
completion in 2014 and will divert water from China's southern 
regions to dryer northern regions,\78\ so far reportedly has 
involved less forcible practices. The relocation projects, 
however, have already triggered a protest and citizen 
grievances. According to an international non-governmental 
organization report released in August 2010, authorities 
utilized persuasion rather than physical force in some citizen 
relocation projects in Danjiangkou city, Hubei province, which 
the report described as an improvement from the practices 
employed in Three Gorges Dam relocations. The government 
employees who were responsible for persuading people to 
relocate, however, reportedly were required to live among the 
villagers and were not permitted to return home until the 
villagers all agreed to relocate.\79\ News reports indicate the 
project has already triggered a multi-day villager protest in 
Qianjiang city, Hubei province; \80\ led to complaints by 
relocated farmers about inadequate compensation,\81\ poor job 
prospects, and unprofitable land; \82\ and triggered at least 
one instance in which officials threatened citizens who took 
their grievances to higher levels.\83\ In addition, the central 
route of the relocation project reportedly generated claims of 
dishonest officials and corruption, as well as additional 
citizen hardships.\84\

          Environmental Transparency and Public Participation

    Central and some local Chinese environmental protection 
officials have taken steps to improve environmental 
transparency, but regular disclosure of information remains a 
problem. Central authorities took a positive step when they 
reportedly acknowledged the link between pollution in the Huai 
River basin and the high number of cancerous tumors found in 
residents along the river.\85\ According to its 2010 annual 
work report, the Ministry of Environmental Protection received 
226 requests for information in 2010, an increase of 205 
percent.\86\ The report does not indicate how many requests 
were granted or denied, only that the ministry responded to 
every request, except one which was still in process.\87\ The 
ministry received 25 requests for administrative 
reconsideration.\88\ A joint Chinese-international study 
released in December 2010 found that there had been some 
improvement in awareness of the need for transparency on the 
part of government officials but that more efforts are 
necessary to translate this awareness into regular disclosure 
of information.\89\ The study also found that the types of 
information hardest for researchers to obtain included 
``list(s) of polluting enterprises whose pollutant discharge 
exceeds national or local standards, list(s) of enterprises 
with major or serious environmental pollution accidents or 
incidents, and list(s) of enterprises refusing to carry out 
effective environmental administrative penalties.'' \90\ The 
results of a second joint study by Chinese and international 
non-governmental organizations (NGOs) on open environmental 
information in 113 cities released in December 2010 noted 
overall improvement in information disclosure from 2009 to 2010 
but also noted that some cities' disclosure performance 
declined.\91\ Eleven cities (9.73 percent) earned ``passing'' 
scores of 60 or above in 2009-2010, an increase from four 
cities (3.54 percent) in 2008.\92\ The study noted that ``many 
facilities in violation of emissions and clean production 
standards failed to publicly disclose emissions data as 
required by law.'' \93\
    During this reporting period, environmental groups have 
utilized environmental open government information procedures 
to obtain information, although barriers to transparency 
continue. A December 2010 article by a Chinese author noted 
that at least 35 organizations joined an ongoing campaign 
promoting green consumption and that these NGOs had requested 
information on polluting factories.\94\ Over 300 enterprises 
reportedly responded to the requests by explaining the reasons 
for the pollution problems, and 50 of those companies consented 
to ``third-party audits'' by NGOs.\95\ Administrative 
provisions, however, remain a major obstacle to transparency as 
environmental protection authorities use them as the basis for 
restricting information disclosure.\96\ Authorities refused to 
grant information in two recent environmental information 
disclosure cases discussed in the Chinese media. In the first 
case, the Ministry of Agriculture refused a 2011 request for 
information about the downsizing of a national nature reserve 
along the Yangtze River because it involved ``procedural 
information.'' \97\ In the second case, local environmental 
officials in Hai'an county, Nantong prefecture, Jiangsu 
province, denied a 2011 request regarding a waste incinerator, 
reportedly responding that they had ``already approved an 
environmental impact assessment'' for the project. The lawyer 
who submitted the request on behalf of an environmental group 
reportedly noted that ``this answer was unrelated to the 
information requested.'' \98\ In May, the lawyer filed an 
administrative reconsideration request to the environmental 
protection bureau at the next highest level.\99\
    Chinese citizens and experts have expressed concern over 
the perceived lack of transparency and the potential risks 
associated with the rapid development of nuclear power 
projects. The nuclear disaster in Japan in March 2011 appeared 
to embolden Chinese citizens and experts to speak out about 
safety concerns.\100\ For example, a noted Chinese scientist 
stated that China is ``seriously unprepared, especially on the 
safety front,'' for speedy development of nuclear plants.\101\ 
The disaster also prompted Chinese officials to conduct a 
safety review of currently operating and planned nuclear power 
plants.\102\ In June, a Ministry of Environmental Protection 
vice minister announced that officials had found all of China's 
13 operating nuclear reactors were safe.\103\ The Chinese 
government reportedly will adhere to its current medium- and 
long-term plans for nuclear power development.\104\ Chinese 
authorities are reportedly considering a new nuclear energy law 
\105\ that one researcher notes could spur transparency in 
China's nuclear power industry.\106\


            public participation and environmental outcomes


    Environmental protection remains a sector in which central 
authorities state a need for greater public participation but 
within the confines of state control. In December 2010, the 
Ministry of Environmental Protection passed a guiding opinion, 
which states that China needs to further expand efforts to 
cultivate and guide environmental social organizations, as well 
as further strengthen relations and cooperation between the 
government and social organizations.\107\ The opinion requires 
environmental social organizations that want to engage in 
cooperative projects with foreign non-governmental entities to 
report to foreign affairs departments for ``examination and 
approval.'' \108\ In addition, the opinion also stipulates that 
various levels of environmental departments must ``strengthen 
political thought construction'' (sixiang zhengzhi jianshe) of 
environmental social organizations.\109\
    This past year, authorities' responsiveness to citizen 
environmental grievances varied across the country. One case 
that highlights the influence of environmental groups involves 
the shuttering and relocation of a polluting chemical plant in 
Qiugang village, Bengbu municipality, Anhui province.\110\ 
Residents unsuccessfully utilized the court system over a 
period of years to find relief from pollution associated with 
nearby chemical plants but then worked with an environmental 
group to utilize alternative ways to bring pressure on 
officials to act.\111\ Local officials relocated one of the 
main polluting plants, although the site still requires a large 
cleanup effort.\112\ Another case involves a waste incineration 
plant in Beijing municipality. A Chinese newspaper reported in 
February 2011 that authorities in Haidian district, Beijing, 
cancelled construction of the incinerator reportedly because of 
its environmental impacts, citizen protests, and its close 
proximity to ``high-end residential complexes.'' \113\ In 
addition, authorities in Dalian municipality, Liaoning 
province, responded quickly to the more than 10,000 people who 
protested a paraxylene (PX) plant in the city.\114\ In 
contrast, in May, in Panyu district, Guangzhou municipality, 
Guangdong province, 5,000 citizens signed a petition to voice 
opposition to five incinerators. Authorities, however, counted 
the petition only as ``one opposition vote'' because the 
citizens did not provide their addresses and phone numbers on 
the petition.\115\ [See Access to Justice and Suppression of 
Citizen Demands for a Cleaner Environment in this section for 
more examples of less responsive authorities in pollution 
cases.]

     Challenges of Enforcement, Compliance, and Official Corruption

    Uneven implementation and enforcement of environmental laws 
and regulations, along with non-compliance and corruption, 
remain significant challenges for the development of rule of 
law in the environmental sector, including in relation to 
environmental impact assessments. In September 2010, a study 
done by a Peking University professor reportedly noted that 
officials face difficulties in enforcing legal sanctions, that 
environmental criminal law remains weak, and that often a law's 
overall objectives contradict the articles within the law.\116\ 
In addition, news reports indicated high levels of bribery and 
corruption among officials in ecological and environmental 
protection during the first six months of 2010.\117\ A 2010 
international study found that enforcement of pollution 
standards varied across time and location in China for a 
variety of reasons, including the level of support from central 
authorities, public pressure, the level of commitment of local 
government officials, enforcement capacity, the characteristics 
of businesses, and the economic context.\118\ In August 2011, 
the Ministry of Environmental Protection (MEP) announced at 
least two special programs to ``supervise'' seven sewage plants 
across China because they turned off their systems ``without 
good reason'' and eight power plants across China for 
fabricating emissions monitoring data.\119\ In June, five non-
governmental organizations (NGOs) sent a letter to the MEP 
noting that the Chinese Academy of Meteorological Sciences 
(CAMS) had given a ``grade A environmental impact assessment'' 
to a waste incineration plant and reportedly had ``falsified 
public feedback.'' The letter urged officials to reject the 
environmental impact assessment (EIA), investigate and fine 
CAMS, and reform the EIA system.\120\ The Hebei Provincial 
Environmental Protection Bureau had previously revoked a 
different CAMS EIA in May for ``fabricated public feedback.'' 
\121\ One report suggests that of the 68 hydropower projects 
approved by local authorities in Zhouqu (Drugchu) county, 
Gannan (Kanlho) Tibetan Autonomous Prefecture, Gansu province, 
67 had not undergone an EIA or geological assessment.\122\ In 
August, one Chinese newspaper article outlined several alleged 
problems with the current EIA system, including low penalties 
for construction companies that break the law, EIA 
organizations' lack of integrity, difficulties in getting 
public information on EIAs, and the symbolic nature of public 
participation.\123\ One Chinese expert notes that ``it is more 
common in China for the public wish to participate in 
environmental impact assessments to be thwarted.'' \124\ An 
international NGO noted that a Chinese scholar reported that 
there are times when local government officials will protect 
polluting businesses.\125\ A December 2010 joint Chinese and 
international report noted that from 2009 to 2010, ``[l]ocal 
environmental protection bureaus often failed to impose any 
fines or take other actions in response as required by law.'' 
\126\ For example, in Shaanxi province, local environmental 
protection bureau personnel on several occasions reportedly 
agreed to an electric power company's requests for a delay in 
execution of penalties for commencing regular operations 
without first gaining environmental approvals.\127\

          Climate Change: Rule of Law and Public Participation

    China's efforts to address climate change relate to the 
development of the rule of law in China, the incorporation of 
public participation in policy processes, and cases of rights 
infringement. China surpassed the United States to become the 
world's top emitter of carbon dioxide in 2007 \128\ and 
reportedly may become responsible for one-third to one-half of 
the world's carbon dioxide emissions by 2030.\129\ Top 
officials reportedly consider China to be vulnerable to the 
impacts of climate change \130\ and during this reporting year 
undertook a variety of actions \131\ and laid out plans \132\ 
to address the issue, including engaging in cooperative 
programs with the United States.\133\ Chinese leaders signed 
the UN Cancun Agreements in December 2010,\134\ but as a 
developing country, China is not bound to reduce greenhouse 
gases under relevant international climate change 
agreements.\135\ Nevertheless, domestically, Chinese leaders 
included a carbon dioxide intensity reduction target of 17 
percent in the PRC Outline of the 12th Five-Year Plan on 
National Economic and Social Development.\136\ In addition, the 
National Development and Reform Commission (NDRC) reportedly 
established a working group to draft a climate change law,\137\ 
for which officials sought public comments between March and 
September 2011.\138\ Despite the call for public input, the 
lack of transparency hinders public participation in climate 
change policy processes.\139\ While in general, participation 
in policy processes is minimal,\140\ citizens do engage in some 
activities addressing climate change. For example, 60 NGOs 
reportedly organized 20 events surrounding the NGO side event 
at the UN Climate Change Conference in Tianjin municipality and 
published a position paper on Chinese NGOs' response to climate 
change, among other projects.\141\ In recent years, citizen 
protests reportedly took place in Shanxi and Liaoning 
provinces, as well as the Xinjiang Uyghur Autonomous Region, 
because of the lack of public input and the land requisition 
practices associated with experimental carbon capture projects 
to help mitigate carbon dioxide emissions in industrial 
processes.\142\ [For additional cases of policies to promote 
use of renewable energy sources to address climate change that 
can be linked to cases of rights infringement, see 
Hydroelectric Dam and Water Project Construction: Rights and 
Safety Controversies in this section.]

           Data Reliability and Transparency: Climate Change

    Chinese leaders have pledged to improve data reliability 
and transparency related to energy and climate change. 
Nevertheless, they reportedly face significant challenges, such 
as obtaining from provinces comprehensive statistics on coal, 
transportation energy, coal-bed methane, biomass, and clean 
energy sectors.\143\ China is reportedly still developing the 
institutions and capacity to evaluate energy figures provided 
by provincial governments, some of which may have incentives to 
provide false information.\144\ Authorities specified in the 
PRC Outline of the 12th Five-Year Plan on National Economic and 
Social Development the intention to establish a greenhouse gas 
emissions statistical accounting system,\145\ which could 
improve data collection if implemented. In October 2010, a 
high-level NDRC official stated that China would begin 
greenhouse gas inventory pilot projects in provinces and cities 
and develop a publicly available greenhouse gas inventory 
database.\146\ Chinese leaders have indicated they would 
continue to rely on domestic monitoring, reporting, and 
verification of China's greenhouse gas emissions and reduction 
data in relation to projects using domestic financing and 
technology.\147\ They reportedly stated their willingness to 
share this information with the international community \148\ 
and to do their utmost to improve transparency.\149\

                                Endnotes

    \1\ Wu Jingjing, ``Vigorously Explore New Paths for Environmental 
Protection in China--Interview With Ministry of Environmental 
Protection Minister Zhou Shengxian'' [Jiji tansuo zhongguo huanjing 
baohu xin daolu-huanjing baohubu buzhang zhou shengxian fangtan], 
Xinhua, 25 December 10. Zhou describes regulatory and institutional 
improvements and notes that carbon oxygen demand dropped 9.66 percent 
and sulfur dioxide emissions dropped 13.4 percent between 2006 and 
2009. He also notes that pollution problems remain severe. Ian Johnson, 
``China Faces `Very Grave' Environmental Situation, Officials Say,'' 
New York Times, 3 June 11.
    \2\ Guangdong Municipal Environmental Protection Science Research 
Institute, ``Five Years of Economic Development in China Gives Rise to 
Environmental Pollution Costs Nearing One Trillion Yuan'' [Woguo 5 nian 
jingji fazhan zaocheng de huanjing wuran chengben jin wanyi], reprinted 
in Greenlaw, 14 January 11. The original report title is: ``Zhongguo 
Huanjing Jingji Hesuan Yanjiu Baogao'' and it asserts that economic 
losses due to pollution and ecological damage total nearly a trillion 
yuan (US$157 million) for the five-year period.
    \3\ Gong Jing, ``Cadmium Rice Killing Machine'' [Gemi shaji], New 
Century, reprinted in Caixin Net, 14 February 11.
    \4\ Yu Dawei, ``Yunnan Circulates Notice Chromium Dregs Reason for 
Pearl River Pollution, for the Moment, Water Quality Has Not Appeared 
Abnormal'' [Yunnan tongbao gezha wuran yuanyin zhujiang shuizhi zhan 
weijian yichang], Caixin Net, 15 August 11; Meng Si, Chinadialogue, 
``On Yunnan's Chromium Trail,'' 30 August 11.
    \5\ Meng Si, Chinadialogue, ``On Yunnan's Chromium Trail,'' 30 
August 11; ``Experts To Probe Toxic Dumping,'' South China Morning 
Post, 15 August 11.
    \6\ Zhang Yanling, ``Scholar Urges Third Party Institution 
Investigate Yunnan Chromium Pollution'' [Xuezhe huyu disanfang jigou 
diaocha yunnan gezha wuran], Caixin, 16 August 11; An Baijie, 
``Watchdog Suspected Over Toxic Waste,'' China Daily, 25 August 11; 
Meng Si, Chinadialogue, ``On Yunnan's Chromium Trail,'' 30 August 11. 
Yunnan officials reportedly did not inform downstream provinces of the 
problem in a timely manner.
    \7\ Fiona Tam, ``Yunnan Plant Dumped Toxins for 20 Years,'' South 
China Morning Post, 17 August 11.
    \8\ Zhou Wenting, ``Huge Stockpile of Toxic Waste in 12 
Provinces,'' China Daily, 31 August 11.
    \9\ National People's Congress, PRC Outline of the 12th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shier ge wunian guihua 
gangyao], passed 14 March 11, issued 16 March 11, chap. 3(5). 
Authorities plan to reduce carbon oxygen demand (COD) and sulfur 
dioxide by 8 percent by 2015, as well as reduce by 10 percent the 
amounts of two new pollutants, ammonia nitrogen and nitrogen oxide.
    \10\ ``Scholar Calls the Content of the Environmental Protection 
Law Out of Touch With Reality'' [Xuezhe cheng ``huanjing baohu fa'' 
neirong yu xianshi tuojie], Radio Free Asia, 16 June 10; Ministry of 
Environmental Protection, ``Circular Letter Regarding Soliciting 
Comments on Environmental Protection Standard (Environmental Impact 
Assessment Technical Guidelines Public Participation) (Draft for 
Comment)'' [Guanyu zhengqiu guojia huanjing baohu biaozhun ``huanjing 
yingxiang pingjia jishu daoze gongzhong canyu'' (zhengqiu yijiangao) 
yijian de han], 30 January 11; State Council Standing Committee, 
Hazardous Chemicals Safety Management Regulations, issued 26 January 
02, amended 16 February 11; Yang Zhanghuai, ``Hubei Dazhi Formally 
Establishes `Environmental Police' '' [Hubei dazhi zujian ``huanbao 
jingcha''], Southern Metropolis Weekend, 13 May 11; ``Legal Aid in 
Environmental Pollution Cases Just in Time'' [Falu yuanzhu huanjing 
wuran an zhengdang qishi], Beijing News, 8 October 10. According to the 
above Beijing News article, Beijing included air pollution cases among 
the cases eligible for legal aid in the city. ``China Will Write 
Legislation Regarding Genetically Modified Organisms Safety, Ministry 
of Environmental Protection To Draft Bill'' [Zhongguo jiang dui zhuan 
jiyin shengwu anquan lifa huanbaobu qicao fa'an], People's Daily, 7 
January 11; National People's Congress Standing Committee, PRC Water 
and Soil Conservation Law [Zhonghua renmin gonghe guo shuitu baochifa], 
issued 29 June 91, amended 25 December 10; ``Our Suggestions for Air 
Pollution Law Revision'' [Wo wei daqifa xiuding jianyan], China 
Environment News, 9 December 10; Meng Si, Chinadialogue, ``Seeking 
Damages,'' 21 July 11.
    \11\ ``Ministry of Environmental Protection: Rural Pollution 
Emissions Account for Half of the Country's Pollution'' [Huanbaobu: 
nongcun wuran paifang yi zhan zhongguo ``banbi jiangshan''], China 
Youth Daily, 3 June 11. According to the above China Youth Daily 
article, environmental protection Vice Minister Li Ganjie stated that 
environmental pollution in rural areas is serious. Liu Yu, Ministry of 
Environmental Protection, ``Zhou Shengxian Chairs Opening of the 
Ministry of Environmental Protection Standing Committee Meeting'' [Zhou 
shengxian zhuchi zhaokai huanjing baohubu changwu huiyi], 31 December 
10; Ian Johnson, ``China Faces `Very Grave' Environmental Situation, 
Officials Say,'' New York Times, 03 June 11.
    \12\ ``Ministry of Environmental Protection: Rural Pollution 
Emissions Account for Half of the Country's Pollution'' [Huanbaobu: 
nongcun wuran paifang yi zhan zhongguo ``banbi jiangshan''], China 
Youth Daily, 3 June 11.
    \13\ Liu Yu, Ministry of Environmental Protection, ``Zhou Shengxian 
Chairs Opening of the Ministry of Environmental Protection Standing 
Committee Meeting'' [Zhou shengxian zhuchi zhaokai huanjing baohubu 
changwu huiyi], 31 December 10. In conjunction with the basic policy 
approach, authorities plan to strengthen planning leadership, expand 
financial investment, strengthen the evaluation of targets, spread 
technology, and promote ``coordinated action.''
    \14\ ``Ministry of Environmental Protection: Rural Pollution 
Emissions Account for Half of the Country's Pollution'' [Huanbaobu: 
nongcun wuran paifang yi zhan zhongguo ``banbi jiangshan''], China 
Youth Daily, 3 June 11. According to the above China Youth Daily 
article, at a press conference, environmental protection Vice Minister 
Li Ganjie noted the steps in the strategy to tackle rural pollution. 
The first step is to design environmental protection plans; the second 
step is to pass livestock and poultry waste and soil pollution 
prevention legislation; the third step is to organize environmental 
monitoring, enforcement, and education activities in villages and 
establish environmental teams to extend supervision coverage to 
villages; the fourth step includes using ``rewards to promote control'' 
demonstration projects and official environmental comprehensive control 
target responsibility system assessments; the fifth step concentrates 
on making advances in drinking water safety, trash management, and soil 
protection, as well as preventing and controlling livestock, poultry, 
and farm pollution. National People's Congress, PRC Outline of the 12th 
Five-Year Plan on National Economic and Social Development [Zhonghua 
renmin gongheguo guomin jingji he shehui fazhan di shier ge wunian 
guihua gangyao], passed 14 March 11, issued 16 March 11. The plan also 
notes efforts will be made to protect drinking water, control 
fertilizer and pesticide pollution, speed up the handling of solid 
waste management, and strictly prohibit urban and industrial pollution 
from spreading to rural areas, among other goals.
    \15\ Liu Yu, Ministry of Environmental Protection, ``Zhou Shengxian 
Chairs Opening of the Ministry of Environmental Protection Standing 
Committee Meeting'' [Zhou shengxian zhuchi zhaokai huanjing baohubu 
changwu huiyi], 31 December 10.
    \16\ Elaine Kurtenbach, ``Arrests and Closures in Lead Poison 
Crackdown,'' Shanghai Daily, 31 May 11; ``Ministry Allocates Fund To 
Inspect Environmental Emergencies,'' Xinhua, 13 June 11. In 2010, 14 
major pollution cases involving heavy metals occurred and there had 
already been 7 cases in 2011 as of the end of May.
    \17\ ``Ministry Allocates Fund To Inspect Environmental 
Emergencies,'' Xinhua, 13 June 11.
    \18\ ``China Intensifies Regulation on Battery Industries After 
Lead Poisoning Case,'' Xinhua, 19 May 11.
    \19\ Mimi Lau, ``Crackdown on Cities With Major Lead Pollution,'' 
South China Morning Post, 20 May 11.
    \20\ ``Chinese Environment Minister Warns of Project Approval 
Suspension Amid Crackdown on Heavy Metal Pollution,'' Xinhua, 1 June 
11.
    \21\ ``China Shuts Down 583 Plants in Lead Battery Plant 
Overhaul,'' Xinhua, 2 August 11.
    \22\ ``Heyuan Conflict Erupts, Villager Says Police Beat Someone to 
Death'' [Heyuan bao chongtu, cunmin cheng jingcha dasi ren], Bingbao, 
reprinted in Sina, 20 June 11.
    \23\ ``Dalian PX Project Triggers Concerns, Thousands of Citizens 
Gather in Protest'' [Dalian PX xiangmu yinqi danyou shuwan minzong shi 
zhizheng jihui kangyi], Radio Free Asia, 14 August 11.
    \24\ Christina Larson, ``The New Epicenter of China's Discontent,'' 
Foreign Policy, 23 August 11.
    \25\ Meng Si, Chinadialogue, ``PX Factory in Typhoon,'' 11 August 
11.
    \26\ ``Dalian PX Project Stopped and Will Be Moved'' [Dalian PX 
xiangmu tingchan daiban], Southern Metropolis Daily, 15 August 11.
    \27\ ``Dalian's People--and Power,'' Wall Street Journal, 15 August 
11.
    \28\ ``Dalian Incident Shows More Adaptable Government,'' Global 
Times, 15 August 11.
    \29\ ``Highlights of Work Report of Supreme People's Court,'' 
Xinhua, reprinted in China Daily, 11 March 11.
    \30\ Wang Jin, Chinadialogue, ``China's Green Laws Are Useless,'' 
23 September 10. A survey of 12,000 judicial employees revealed that 50 
percent of them believed environmental lawsuits were regularly being 
refused by courts.
    \31\ Alex Wang, Chinadialogue, ``Green Litigation in China Today,'' 
18 July 11.
    \32\ Ibid.
    \33\ Ibid.
    \34\ Ibid.
    \35\ Meng Si, Chinadialogue, ``Seeking Damages,'' 21 July 11.
    \36\ Alex Wang, Chinadialogue, ``Green Litigation in China Today,'' 
18 July 11.
    \37\ Ibid. The author counts 39 environmental courts, which is an 
increase from a handful of courts noted in the CECC 2009 Annual Report. 
CECC, 2009 Annual Report, 10 October 10, 191, 195. CECC staff 
interviews found that other estimates of the number of environmental 
courts run from 50 to 100.
    \38\ ``Kunming's First Environmental Public Interest Case Announces 
Judgment, 4 Million in Compensation'' [Kunming shouli huanjing gongyi 
susong anjian xuanpan peichang 400 wan], Jinghua News, reprinted in 
NetEase, 30 January 11.
    \39\ CECC, 2010 Annual Report, 10 October 10, 156. Also see Alex 
Wang, Chinadialogue, ``Green Litigation in China Today,'' 18 July 11.
    \40\ Wang Jin, Chinadialogue, ``China's Green Laws Are Useless,'' 
23 September 10.
    \41\ Ibid.
    \42\ Human Rights Watch, `` `My Children Have Been Poisoned': A 
Public Health Crisis in Four Chinese Provinces,'' 15 June 11, 25-31.
    \43\ For more information about one of the cases in Hunan (Wugang 
city), see Michael Wines, ``Lead Sickens 1,300 Children in China,'' New 
York Times, 20 August 09; ``Lead Poisoning in Children in Hunan 
Triggers Protests by Parents and Raises Questions About Governmental 
Accountability,'' CECC China Human Rights and Rule of Law Update, No. 
1, 8 January 10, 2. For more information about the Shaanxi (Fengxiang 
county) lead poisoning case, see Tu Chonghang, ``Shaanxi Lead Poisoning 
Incident From Start to Finish'' [Shaanxi fengxiang qian zhongdu 
shijianshiwei], Beijing News, reprinted in China Law Information Net, 
21 August 09; ``Lead Poisoning Incident in Shaanxi Leads to Protests, 
Rights Infringements Reported,'' CECC China Human Rights and Rule of 
Law Update, No. 6, 9 December 09, 8.
    \44\ Human Rights Watch, `` `My Children Have Been Poisoned': A 
Public Health Crisis in Four Chinese Provinces,'' 15 June 11. Police in 
Shaanxi detained citizens demonstrating in front of a lead-processing 
facility and police in Hunan reportedly arrested seven people seeking 
assistance with their sick children.
    \45\ Ibid. Authorities in Shaanxi forced a journalist who tried to 
report on the lead poisoning cases to leave the area.
    \46\ ``Six Environmental Protection Villagers Detained for 
Petitioning on Behalf of Over One Thousand Villagers in Pingnan, Fujian 
Province,'' [Fujian pingnan liuwei huanbao cunmin wei yuqian cunmin 
shangfang bei juliu], Radio Free Asia, 25 October 10.
    \47\ ``Pingnan County, Fujian Province: Nearly 100 Villagers Kneel 
in Supplication for Detained Villagers' Release'' [Fujian pingnan jin 
bai cunmin guiqiu shifang bei bu cunmin], Radio Free Asia, 10 May 10.
    \48\ ``Six Environmental Protection Villagers Detained for 
Petitioning on Behalf of Over One Thousand Villagers in Pingnan, Fujian 
Province'' [Fujian pingnan liuwei huanbao cunmin wei yuqian cunmin 
shangfang bei juliu], Radio Free Asia, 25 October 10.
    \49\ Ibid.; ``Pingnan County, Fujian Province: Nearly 100 Villagers 
Kneel in Supplication for Detained Villagers' Release'' [Fujian pingnan 
jin bai cunmin guiqiu shifang bei bu cunmin], Radio Free Asia, 10 May 
10.
    \50\ ``Pingnan County, Fujian Province: Nearly 100 Villagers Kneel 
in Supplication for Detained Villagers' Release'' [Fujian pingnan jin 
bai cunmin guiqiu shifang bei bu cunmin], Radio Free Asia, 10 May 10.
    \51\ Voice of Tibet, ``Tibetans in Tibet Beaten and Detained by 
Authorities for Opposing Mine'' [Jingnei zangren yin fandui kaikuang 
zao zhonggong duda he jubu], reprinted in Boxun, 11 February 11 
(protests and petitioning began on November 22; beatings and detention 
on December 18); ``15 Tibetans Put Behind Bars Over Anti-mining 
Protests in Shigatse,'' Phayul, 14 February 11. See the Commission's 
Political Prisoner Database for more information on the cases.
    \52\ ``Tibetan Dam Protesters Detained,'' Radio Free Asia, 7 
October 10. See the Commission's Political Prisoner Database for more 
information on the cases. ``Villagers Block Work on Dam,'' Radio Free 
Asia, 30 September 10 (the mountain's name is Lhachen Naglha Dzamba). 
According to the news report, workers claimed ``their permit to mine in 
the area had been approved by the Communist Party secretary of the 
TAR.'' The TAR government would issue such a permit, but a TAR Party 
official may have signified agreement.
    \53\ Kalsang Rinchen, ``Police Firing Kills 3, Injures 30 Tibetans 
in Palyul County,'' Phayul, 24 August 10; ``Police Fire on Mine 
Protesters,'' Radio Free Asia, 26 August 10; Phurbu Thinley, ``China 
Says Only One Tibetan Shot Dead in Palyul Mine Protest,'' Phayul, 1 
September 10; ``Tibetan Accidentally Shot Dead in Dispute With 
Police,'' Xinhua, reprinted in China Internet Information Center, 30 
August 10.
    \54\ ``Tibetan Mine Protesters Detained,'' Radio Free Asia, 5 
August 11.
    \55\ Ibid.
    \56\ ``Wuxi Huangtutang Trash Incinerator Mass Incident, More Than 
10,000 Gather'' [Wuxi huangtutang laji ranxiao qunti shijian yiwan duo 
ren juji], Boxun, 9 April 11.
    \57\ ``Wuxi Police and Citizens Tangle in Protest Against Operation 
of Incinerator'' [Kangyi fenhualu touchan wuxi jingmin hunzhan], 
Mingpao, reprinted in Sina, 29 May 11; Feng Yongfeng, ``Jiangsu, Wuxi 
`Grandfather Gallery' Morphs Into `Waste Incinerator' '' [Jiangsu, wuxi 
``huangtutang'' bianshen ``laji fenshaochang''], Wohua Media Net, 
reprinted in QQ News, 31 May 11. The village secretary reportedly 
convinced 77 percent of the villagers in the area to sign over their 
land to build a ``Grandfather Gallery,'' but then proceeded to build an 
incinerator instead.
    \58\ ``Wuxi Police and Citizens Tangle in Protest Against Operation 
of Incinerator'' [Kangyi fenhualu touchan wuxi jingmin hunzhan], 
Mingpao, reprinted in Sina, 29 May 11.
    \59\ ``Chinese Mongolians Protest Again, Herders Beaten: Rights 
Group,'' Reuters, 30 June 11; ``Herders in China's Inner Mongolia 
Protest Over Lead Mine in Latest Unrest, Some Reported Hurt,'' 
Washington Post, 30 June 11; Southern Mongolian Human Rights 
Information Center, ``New Round of Herders' Protest Erupts in Southern 
(Inner) Mongolia,'' 29 June 11; Southern Mongolian Human Rights 
Information Center, ``Fresh Protest by Mongolian Herders, Dozens 
Hospitalized,'' 23 July 11.
    \60\ ``Herders in China's Inner Mongolia Protest Over Lead Mine in 
Latest Unrest, Some Reported Hurt,'' Washington Post, 30 June 11.
    \61\ ``Chinese Mongolians Protest Again, Herders Beaten: Rights 
Group,'' Reuters, 30 June 11.
    \62\ Ibid.; Southern Mongolian Human Rights Information Center, 
``New Round of Herders' Protest Erupts in Southern (Inner) Mongolia,'' 
29 June 11; Southern Mongolian Human Rights Information Center, ``Fresh 
Protest by Mongolian Herders, Dozens Hospitalized,'' 23 July 11.
    \63\ ``Herders in China's Inner Mongolia Protest Over Lead Mine in 
Latest Unrest, Some Reported Hurt,'' Washington Post, 30 June 11.
    \64\ Ibid.
    \65\ See, e.g., Southern Mongolian Human Rights Information Center, 
``Protests Spread in Southern Mongolia, Thousands More Take to the 
Streets,'' 26 May 11; Andrew Jacobs, ``Anger Over Protesters' Deaths 
Leads to Intensified Demonstrations by Mongolians,'' New York Times, 30 
May 11.
    \66\ Wenran Jiang and Zining Liu, Jamestown Foundation, ``Energy 
Security in China's 12th Five-Year Plan,'' China Brief, Vol. 11, No. 
11, 17 June 11; National Human Rights Action Plan and China National 
Development and Reform Commission, ``Medium and Long-Term Development 
Plan for Renewable Energy in China (Abbreviated Version),'' China Net, 
September 2007, secs. 3.2, 4, 4.1. See the following articles for 
examples of reasons given by Chinese officials as to why dams are 
built, which include increasing reliance on renewable energy, flood 
control, transportation, establishing a reliable reservoir of water for 
irrigation or drinking, stimulating economic development, and 
generating local government revenues. ``Massive Chinese Hydro Project 
Moves Ahead,'' Breakbulk Online, 27 January 11; Fu Wen and Teddy Ng, 
``Experts Cast Doubt Over Benefits of Hydropower,'' Global Times, 24 
November 11; ``China Daily: China Pledges Water Will Still Flow,'' 
China Daily, 19 November 11; S. Anuradha, International Rivers Network, 
``China's Sinohydro Says Hydropower Growth Likely To Fall in Asia on 
Growing Resistance,'' 11 November 10; Christina Larson, ``Where the 
River Ends,'' Foreign Policy, 2 June 11; ``Lessons To Be Learned,'' 
China Daily, 8 August 11.
    \67\ Xu Donghuan, ``Ecologists Dread New Dam Boom,'' Global Times, 
10 February 11.
    \68\ ``Is Hydropower Exploitation of the Nu River in China a Must? 
'' Guardian blog, 10 February 11; Jonathan Watts, ``China's Big Hydro 
Wins Permission for 21.3GW Dam in World Heritage Site,'' Guardian, 1 
February 11; ``National Energy Bureau Responsible Person Declares for 
First Time: Nujiang Will Be Developed'' [Guojia nengyuanju fuzeren 
shouci biaotai: nujiang yiding hui kaifa], China National Radio, 
reprinted in People's Daily, 31 January 11; Fu Wen and Teddy Ng, 
``Experts Cast Doubt Over Benefits of Hydropower,'' Global Times, 24 
November 10.
    \69\ Xu Donghuan, ``Ecologists Dread New Dam Boom,'' Global Times, 
10 February 11. According to the Global Times report, a Beijing-based 
river expert stated that ``[t]hese sub-standard small hydroelectric 
stations can trigger landslides and are a great threat to the local 
ecological system.'' Authorities have dammed 60 tributaries to the Nu 
River, with 42 projects completed and 88 slated to be completed. A top 
official noted that a number of national studies show the Nu River 
valley in Yunnan province is subject to geological and seismological 
disasters, and she prepared a proposal calling on the central 
government to ``pay attention to the special and complex geological and 
seismological conditions in the Nu River valley and take caution in 
making decisions about hydraulic power development there.'' Li Xing and 
Wang Huazhong, ``Earthquake Casts Doubt on Hydropower,'' China Daily, 
12 March 11; ``Lessons To Be Learned,'' China Daily, 8 August 11.
    \70\ ``Wen Jiabao Opens State Council Meeting, Discusses and Passes 
`Three Gorges Follow-Up Work Plan' '' [Wen jiabao kai guowuyuan hui 
taolun tongguo ``sanxia houxu gongzuo guihua'' deng], Xinhua, 18 May 
11. These problems include the ``stability'' and livelihood of 
resettled populations and the prevention of geological disasters. 
Leaders also acknowledged that the dam had affected the 
``transportation in the middle and lower reaches of the Yangtze River, 
irrigation, and the supply of water,'' among other problems.
    \71\ Ibid. The plans include the ``Three Gorges Follow-Up Work 
Plan'' and the ``Yangtze Middle and Lower Reaches Watershed Water 
Pollution Prevention and Control Plan.'' According to Xinhua, the Three 
Gorges Follow-Up Work Plan's objectives include bringing the standard 
of living of those relocated because of the dam up to a level equal to 
that of residents in Hubei province and Chongqing municipality.
    \72\ Dai Qing, Probe International, ``On the Completion of the 
Three Gorges Project,'' 22 January 11. Some estimates are higher 
because they include people who the government said were resettled for 
``urbanization'' or ``employment'' programs. Dai Qing reports the 
official number of people relocated to make way for the Three Gorges 
dam to be 1.4 million. Probe International estimates that 3.7 million 
people have been relocated and Dai Qing estimates the number is higher 
at 4 million.
    \73\ These reports have uncovered forced evictions, below-standard 
compensation, suppression of advocates, and government corruption 
during resettlement processes, as well as documented the threat of 
severe hardships that may be faced by relocated citizens, including 
homelessness, unemployment, conflicts between resettled citizens and 
existing populations, and poverty among resettled migrants. See, e.g., 
Peter H. Gleick, ``Three Gorges Dam Project, Yangtze River, China,'' in 
Water Brief 3, The World's Water 2008-2009 (Oakland, CA: Pacific 
Institute, 2009), 145-46; Jim Yardley, ``Chinese Dam Projects 
Criticized for Their Human Costs, Choking on Growth, Part IV,'' New 
York Times, 19 November 07. For information on activist Xie Fulin, see 
CECC, 2006 Annual Report, 20 September 06, 103; ``Three Gorges 
Resettlement Activist Paralyzed After Assault,'' CECC China Human 
Rights and Rule of Law Update, July 2006, 10-11; Stacy Mosher, Human 
Rights in China, ``The Case of Fu Xiancai,'' China Rights Forum, No. 3, 
2006, 48-51. See the Commission's Political Prisoner Database for more 
information on Fu Xiancai.
    \74\ International Rivers, ``Resettlement in Action,'' 25 August 
10.
    \75\ Choi Chi-yu, ``2,000 Battle Police in Yunnan,'' South China 
Morning Post, 31 March 11.
    \76\ Rachel Beitarie, ``Burst of New Dams in Southwest China 
Produces Power and Public Ire,'' Circle of Blue, 22 March 11.
    \77\ National People's Congress, PRC Outline of the 12th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shier ge wunian guihua 
gangyao], passed 14 March 11, issued 16 March 11, chap. 8(2).
    \78\ International Rivers, ``Resettlement in Action,'' 25 August 
10, 1; ``More Resettled for S-N Water Diversion Project,'' Xinhua, 
reprinted in China Daily, 20 September 10.
    \79\ International Rivers, ``Resettlement in Action,'' 25 August 
10, 8.
    \80\ ``Migrants Hold Large Protest at Median Line of South-to-North 
Water Diversion Project, Vice Governor Assumes Command, Moves Armed 
Police To Disperse With Force'' [Nanshui beidiao zhongxian yimin da 
kangyi fushengzhang zuozhen tiao wujing qiang qusan], Radio Free Asia, 
26 November 10; Carla Freeman, China Environment Forum, Woodrow Wilson 
International Center for Scholars, ``Quenching the Dragon's Thirst, the 
South-North Water Transfer Project--Old Plumbing for New China? '' last 
visited 9 February 11, 6.
    \81\ Jamil Anderlini, ``China: A Blast From the Past,'' Financial 
Times, 14 December 09.
    \82\ Chris Buckley, ``China To Move Tens of Thousands for Huge 
Water Scheme,'' Reuters, 29 June 10. According to Reuters, some farmers 
relocated for the Danjiangkou Dam have complained they are being 
relocated to less arable land and have sparse job prospects. The dam's 
reservoir will provide water for the diversion project. Carla Freeman, 
China Environment Forum, Woodrow Wilson International Center for 
Scholars, ``Quenching the Dragon's Thirst, the South-North Water 
Transfer Project--Old Plumbing for New China? '' last visited 9 
February 11, 6. In 2009, villagers near the Danjiangkou Dam 
construction site ``verbally attacked village officials and threatened 
resistance over plans to resettle them elsewhere in central China.'' 
Wang Dazhong, Nanyang City Party Committee, Mass Work Department, and 
Nanyang City Petition Bureau, ``Several Points To Ponder in Addressing 
South-to-North Water Diversion Central Route Project Danjiangkou 
Reservoir Migrant Petitions'' [Dui nanshui beidiao zhongxian gongcheng 
danjiangkou kuqu yimin xinfang de jidian sikao], 13 October 10; Michael 
Bristow, ``China Villagers Moved To Quench the Urban Thirst,'' BBC, 3 
March 10. The above report provides some information about the nature 
of citizen complaints related to the Danjiangkou Dam relocation 
project.
    \83\ ``Officials Lure Villagers, Force Them To Accept Place To 
Settle, Threaten Petitioners'' [Ganbu youdao cunmin qiangzhi jieshou 
anzhidian konghe shangfang zhe], China Journalist Survey Net, reprinted 
in Bangkaow.com, 3 September 10.
    \84\ Wang Dazhong, Nanyang City Party Committee, Mass Work 
Department, and Nanyang City Petition Bureau, ``Several Points To 
Ponder in Addressing South-to-North Water Diversion Central Route 
Project Danjiangkou Reservoir Migrant Petitions'' [Dui nanshui beidiao 
zhongxian gongcheng danjiangkou kuqu yimin xinfang de jidian sikao], 13 
October 10; Michael Bristow, ``China Villagers Moved To Quench the 
Urban Thirst,'' BBC, 3 March 10.
    \85\ Xu Chao, ``The Relationship Between Huai River Basin Pollution 
and Cancer Basically Established'' [Huaihe liuyu wuran yu aizheng 
guanxi jiben zhengshi], Caijing, 27 December 10.
    \86\ Ministry of Environmental Protection, ``Ministry of 
Environmental Protection Open Government Information Work 2010 Annual 
Report'' [Huanjing baohubu zhengfu xinxi gongkai gongzuo 2010 niandu 
baogao], 14 March 11.
    \87\ Ibid.
    \88\ Ibid.
    \89\ Article 19 and Center for Legal Assistance to Pollution 
Victims, ``Access to Environmental Information in China: Evaluation of 
Local Compliance,'' December 2010.
    \90\ Ibid.
    \91\ Natural Resources Defense Council and Institute of Public & 
Environmental Affairs, ``Environmental Open Information: Between 
Advance & Retreat--The 2009-2010 Pollution Information Transparency 
Index (PITI) Second Annual Assessment of Environmental Transparency in 
113 Chinese Cities,'' 28 December 10, 3. According to the study's 
results, out of 100 possible points, the average score of the cities 
examined increased from 31 points in 2008 to 36 points in 2009-2010 (p. 
3).
    \92\ Ibid.
    \93\ Natural Resources Defense Council and Institute of Public & 
Environmental Affairs, ``Environmental Open Information: Between 
Advance & Retreat--The 2009-2010 Pollution Information Transparency 
Index (PITI) Second Annual Assessment of Environmental Transparency in 
113 Chinese Cities,'' 28 December 10, 4.
    \94\ Ma Jun, Chinadialogue, ``Advancing Energy Conservation and 
Reducing Pollution With Environmental Open Information'' [Yi huanjing 
xinxi gongkai cujin jieneng jianpai], 13 December 10.
    \95\ Ibid.
    \96\ For example, one online response to an open environmental 
information request on the Anhui Government Open Government Information 
Net Web site listed a provision and its appendix as the basis for not 
releasing some of the information requested. Anhui Province People's 
Government Open Government Information Net, ``Description of Needed 
Information Contents, Yangtze River, Anchuang Section, Wuwei Section 
and Chaohu Lake Region Related Water Quality Raw Data from 2007-2010'' 
[Suo xu xinxi de neirong miaoshu, changjiang anqing duan, wuwei duan he 
chaohu huqu zi 2007-2010 de xiangguan shuizhi yuanshi shuju], 20 
October 10. According to the response posted on the Anhui Province 
government Web site, the response to the environmental information 
request cites provisions that environmental protection authorities 
apparently issued in 2004, i.e., ``Provisions on the Scope of State 
Secrets in Environmental Protection Work'' (Provisions). Based on the 
response to the open environmental information request cited above, the 
Provisions appear to have an appendix that stipulates environmental 
protection work secrets, i.e., the ``Environmental Protection Work 
State Secrets Catalog'' [Huanjing baohu gongzuo guoji mimi mulu]. Based 
on a review of the Catalog of National Environmental Departmental 
Normative Documents Remaining in Force cited below, the Provisions were 
in force as of September 2010, but Commission staff could not locate a 
copy of them on the Internet. Hubei Environmental Protection Portal, 
``Appendix: Catalog of National Environmental Departmental Normative 
Documents Remaining in Force'' [Fujian: jixu youxiao de guojia huanbao 
bumen guifanxing wenjian mulu], 30 September 10.
    \97\ Xi Jianrong, ``Environmental Protection Organization Seeks 
Investigation Into Legality of `Procedural Information' '' [Huanbao 
zuzhi tiqing ``guochengxing xinxi'' hefaxing shencha], Legal Daily, 25 
March 11; Zhang Ke, ``Environmental NGO Petitions State Council To 
Question Whether Fish Reserve Restructuring Serves Power Station'' 
[Huanbao zuzhi shangshu guowuyuan zhiyi yulei baohuqu wei dianzhan 
tiaozheng], Number One Caijing Daily, reprinted in China Transparency, 
8 June 11. For more complete information about the case, see Xi 
Jianrong, ``NGO Requests Publication of Information on Nature Reserve 
Restructuring'' [Minjian zuzhi jiu ziran baohuqu tiaozheng shenqing 
xinxi gongkai], Legal Daily, 20 January 11; Ministry of Environmental 
Protection, ``Ministry of Environmental Protection: Announcement on 
Applications for Promotion and Restructuring of National Level Nature 
Reserves'' [Huanjing baohubu gonggao: dui shenqing jinsheng he 
tiaozheng de guojia ji ziranbaohuqu jinxing gong shi], 4 January 11; Xi 
Jianrong, ``Scholars Request Hearing on National Level Nature Reserve 
Restructuring'' [Xuezhe qingqiu jiu changjiang shangyou guojia ji 
ziranbaohuqu tiaozheng tingzheng], Legal Daily, 1 March 11; Beijing 
Impact Law Firm, ``Upper Yangtze National Level Rare Fish Nature 
Reserve To Be Downsized'' [Changjiang shangyou zhenxi teyou yulei 
guojia ji ziranbaohuqu mianji bei suojian], 24 March 11.
    \98\ Han Lewu, ``Application for Publication of Environmental 
Information on Waste Incineration Plant Rejected, Environmental NGO 
Seeks Administrative Review'' [Shenqing gongkai laji fenshaochang 
huanjing xinxi beiju huanbao zuzhi tiqi xingzheng fuyi], Legal Daily, 8 
June 11. According to the Legal Daily article, the Darwin Nature 
Knowledge Society submitted open government information requests to the 
Hai'an County Environmental Protection Bureau among other environmental 
departments asking for the environmental impact assessment reports for 
a waste incineration power plant and related waste management projects, 
as well as requesting information about the power plant's emissions 
data. Xi Jianrong, ``Environmental Organization Requests Environmental 
Impact Assessment of Beijing Sujiatuo Incineration Plant'' [Huanbao 
zuzhi shenqing gongkai beijing sujiatuo fenshaochang huanping xinxi], 
Legal Daily, reprinted in China Transparency, 16 June 11.
    \99\ Han Lewu, ``Application for Publication of Environmental 
Information on Waste Incineration Plant Rejected, Environmental 
Protection NGO Seeks Administrative Review'' [Shenqing gongkai laji 
fenshaochang huanjing xinxi beiju huanbao zuzhi tiqi xingzheng fuyi], 
Legal Daily, 8 June 11.
    \100\ Malcolm Moore, ``Leading Physicist Calls China's Nuclear 
Programme `Rash and Unsafe,' '' Telegraph, 1 June 11; ``Minister 
Recommends China Have Independent Nuclear Safety Regulator in Wake of 
Japan Crisis,'' Associated Press, 3 June 11. Other Chinese experts and 
top international nuclear authorities also expressed the need to 
increase oversight of nuclear power plants. Keith Bradsher, ``Nuclear 
Power Expansion in China Stirs Concerns,'' New York Times, 15 December 
09. An International Atomic Energy Agency official noted there was some 
concern that China might not have enough nuclear inspectors with 
sufficient training to manage the rapid growth of nuclear power. Choi 
Chi-yuk, ``Nuclear Threat From Mountain of Spent Fuel,'' South China 
Morning Post, 1 April 11. One Chinese nuclear engineer was quoted as 
saying ``. . . previously produced waste has yet to be properly dealt 
with, . . .'' ``It will pose a tremendous safety threat to the public 
as a result of the piling up of more and more nuclear fuel, year after 
year.''
    \101\ Malcolm Moore, ``Leading Physicist Calls China's Nuclear 
Programme `Rash and Unsafe,' '' Telegraph, 1 June 11.
    \102\ Liu Yiyu, ``New Nuclear Power Plants `Set To Be Approved,' '' 
China Daily, 22 April 11. Chinese authorities reportedly suspended 
approvals for new nuclear power projects and inspected plants in 
operation and under construction.
    \103\ Brian Spegele, ``Beijing Says Its Reactors Are Safe,'' Wall 
Street Journal, 16 June 11.
    \104\ Liu Yiyu, ``New Nuclear Power Plants `Set To Be Approved,' '' 
China Daily, 22 April 11; ``China Says Its Nuclear Reactors Passed 
Inspections,'' Associated Press, reprinted in New York Times, 15 June 
11. China reportedly plans to have more than 100 plants in operation by 
2020.
    \105\ Wang Huazhong, ``Japan Nuclear Crisis Prompts `Urgent' 
Drafting of New Law,'' China Daily, 26 April 11. China currently does 
not have an overarching nuclear energy law and two previous attempts to 
pass one in 1984 and 2008 were not successful. The law would reportedly 
include stipulations related to uranium mining, nuclear material 
management, nuclear power plant operation, nuclear waste, emergency 
management, and compensation.
    \106\ Ibid.
    \107\ Ministry of Environmental Protection, Guiding Opinion on 
Cultivating and Guiding Orderly Development of Environmental Non-
Governmental Organizations [Peiyu yindao huanbao shehui zuzhi youxu 
fazhan de zhidao yijian], issued 10 December 10, arts. 2, 10.
    \108\ Ibid., art. 10.
    \109\ Ibid. This may indicate efforts to strengthen Party control 
over environmental groups.
    \110\ Alex Wang, ``The Warriors of Qiugang--A New Documentary on 
the Struggle To Save China's Environment,'' Natural Resources Defense 
Council Switchboard Blog, 11 January 11 (has a link to the video).
    \111\ Ibid.
    \112\ Ibid.
    \113\ Wang Qingchu, ``Pollution Fear Cancels Beijing Power Plant 
Plan,'' Shanghai Daily, 10 February 11.
    \114\ ``Dalian PX Project Stopped and Will Be Moved'' [Dalian PX 
xiangmu tingchan daiban], Xinhua, reprinted in Southern Metropolis 
Daily, 15 August 11; ``Dalian PX Project Triggers Concerns, Thousands 
of Citizens Gather in Protest'' [Dalian PX xiangmu yinqi danyou shuwan 
minzong shi zhizheng jihui kangyi], Radio Free Asia, 14 August 11.
    \115\ Tao Dapin, ``5,000 People Press Thumbprints To Oppose Panyu 
Waste Incinerator, Only Counted as One Opposition Vote? '' [5 qian ren 
an shouyin fandui panyu laji fenshaochang zhi suan yizhang 
fanduipiao?], Asia News, 24 May 11.
    \116\ Wang Jin, Chinadialogue, ``China's Green Laws Are Useless,'' 
23 September 10. For example, the government of Guzhen county, Anhui 
province, removed six local environmental protection officials, 
including the head of the local environmental protection bureau (EPB), 
because local government officials claimed the EPB's strict enforcement 
actions hurt efforts to attract business investment. Anhui province 
requires environmental authorities to obtain governmental approval 
prior to conducting a check.
    \117\ Zhao Yang, ``Ecology, Environmental Protection, Land 
Requisition, and Demolition, High Levels of Corruption'' [Shengtai 
huanbao zhengdi chaiqian fubai gaofa], Legal Daily, 12 August 10.
    \118\ Benjamin Van Rooij and Carlos Wing-Hung Lo, ``Fragile 
Convergence: Understanding Variation in the Enforcement of China's 
Industrial Pollution Law,'' Law & Policy, Vol. 32, No. 1 (2010), 16-17.
    \119\ ``China Launches Special Supervision in 15 Companies for 
Pollution Control Violations,'' Xinhua, 29 August 11.
    \120\ Chinadialogue, ``NGOs Challenge Environment Authorities,'' 21 
June 11.
    \121\ Ibid.
    \122\ ``Lessons To Be Learned,'' China Daily, 8 August 11.
    \123\ ``The Fabricated Environmental Impact Assessment System'' 
[Bei jiakong de huanping zhidu], China Reform Net, reprinted in Caixin, 
1 August 11. For one review of the role of public participation in 
environmental EIA processes and beyond since 2004, see Zhang Jingjing, 
Chinadialogue, ``The Plight of the Public (1),'' 19 July 11.
    \124\ Zhang Jingjing, Chinadialogue, ``The Plight of the Public 
(2),'' 19 July 11. Zhang notes that while the 2006 measure ``Temporary 
Method for Public Participation in Environmental Impact Assessments'' 
provides for public participation, there is no legal recourse for 
infringement of that right.
    \125\ Wang Jin, ``China's Green Laws Are Useless,'' China Dialogue, 
23 September 10. For example, the government of Guzhen county, Anhui 
province, removed six local environmental protection officials, 
including the head of the local environmental protection bureau (EPB), 
because local government officials claimed the EPB's strict enforcement 
actions hurt efforts to attract business investment. Anhui province 
requires environmental authorities to obtain governmental approval 
prior to conducting a check.
    \126\ Natural Resources Defense Council and Institute of Public & 
Environmental Affairs, ``Environmental Open Information: Between 
Advance & Retreat--The 2009-2010 Pollution Information Transparency 
Index (PITI) Second Annual Assessment of Environmental Transparency in 
113 Chinese Cities,'' 28 December 10, 4.
    \127\ Qie Jianrong, ``Delay in Administering Penalty for 
Illegalities Raises Doubts Among Experts'' [Weifa chufa huanqi zhixing 
yin zhuanjia zhiyi], Legal Daily, 13 December 10. The power plant 
authorities claimed that stopping power generation and paying a fine 
would adversely affect regional power supply.
    \128\ John Vidal and David Adam, ``China Overtakes U.S. as World's 
Largest CO2 Emitter,'' Guardian, 19 June 07; Jane A. Leggett, Jeffrey 
Logan, and Anna Mackey, Congressional Research Service, ``China's 
Greenhouse Gas Emissions and Mitigation Policies,'' 10 September 08; 
Todd White and Jeremy Van Loon, ``China Exports Made It World's Largest 
Greenhouse-Gas Factory,'' Bloomberg News, 25 February 09.
    \129\ Bruce Gilley, ``Authoritarian Environmentalism and China's 
Response to Climate Change,'' Environmental Politics (forthcoming 
2012), draft version online, 22 April 11, 6-8.
    \130\ State Council Information Office, ``White Paper: China's 
Policies and Actions on Climate Change,'' 29 October 08. According to 
the white paper, authorities state they take ``economic development as 
the core objective''; and they have also stated that they place 
emphasis on energy conservation policies, strive to mitigate greenhouse 
gas emissions, and prioritize policies to adapt to climate change. 
Renmin University, ``China Human Development Report 2009/10, China and 
a Sustainable Future: Towards a Low Carbon Economy and Society,'' 
commissioned by the United Nations Development Programme, April 2010; 
Joint Global Change Research Institute and Battelle Memorial Institute, 
Pacific Northwest Division, ``China: Impact of Climate Change to 2030--
A Commissioned Research Report,'' prepared for the National 
Intelligence Council, April 2009. The above paper lists several 
specific impacts, states China has lower resilience (adaptive capacity) 
to climate change than some other counties, and argues climate change 
will exacerbate existing social and resource stresses. United Nations 
Framework Convention on Climate Change, ``Climate Change: Impacts, 
Vulnerabilities and Adaptation in Developing Countries,'' 2007; 
Germanwatch, ``Global Climate Risk Index 2011, Who Suffers Most From 
Extreme Weather Events/Weather-Related Loss Events in 2009 and 1990 to 
2009,'' 16 December 10. This research ranked China 35th compared with 
other countries for the occurrence of extreme weather events in 2009.
    \131\ Barbara Finamore, ``Taking Action To Meet Its Climate 
Pledge--China Enacts National Energy Efficiency DSM Regulations To 
Dramatically Scale Up Investment in Energy Efficiency,'' Natural 
Resources Defense Council Switchboard Blog, 29 November 10; ``China To 
Set Up Funds for Development of Green Energy Counties,'' Xinhua, 28 
April 11; ``National Development and Reform Commission Issues `China's 
Policies and Actions for Addressing Climate Change--2010 Annual Report' 
'' [Fagaiwei gongbu ``zhongguo yingdui qihou bianhua zhengce yu 
xingdong--2010 niandu baogao''], China Government Net, reprinted in 
Xinhua, 23 November 10.
    \132\ National People's Congress, PRC Outline of the 12th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shier ge wunian guihua 
gangyao], passed 14 March 11, issued 16 March 11, chap. 21. Chinese 
leaders plan to speed up research and development of low carbon 
technologies, to develop a greenhouse gas statistical accounting 
system, to gradually establish an emission trading market, and to 
promote ``low carbon demonstration projects,'' among other plans.
    \133\ Joanna Lewis, ``The State of U.S.-China Relations on Climate 
Change: Examining the Bilateral and Multilateral Relationship,'' China 
Environment Series, No. 11, 2010/2011, 7-39 (especially pp. 26-34).
    \134\ ``Cancun Climate Conference Passes Resolution on Response to 
Climate Change'' [Kankun qihou dahui tongguo yingdui qihou bianhua 
jueyi], Caixin Net, 11 December 10.
    \135\ Because China signed and ratified the United Nations 
Framework Convention on Climate Change Kyoto Protocol as a 
``developing'' country and is not on the list of Annex B countries with 
binding emission reduction targets, China currently has no formal 
obligation under the Protocol to reduce its greenhouse gas emissions. 
For China's ratification information, see United Nations Framework 
Convention on Climate Change, ``Kyoto Protocol Status of 
Ratification,'' 10 July 06. For listings of countries on Annexes A and 
B of the Kyoto Protocol, see United Nations Framework Convention on 
Climate Change, Kyoto Protocol, art. 3, Annexes A and B. See also 
Letter from Su Wei, Director-General, Department of Climate Change, 
National Development and Reform Commission of China, to Mr. Yvo de 
Boer, Executive Secretary, UNFCCC Secretariat [Letter Regarding 
Autonomous Domestic Mitigation Actions], reprinted in ChinaFAQs, 28 
January 10. Internationally, top officials emphasize the voluntary 
nature of the country's efforts to lower carbon dioxide emissions per 
unit of GDP (carbon intensity) by 40-45 percent by 2020 compared to 
2005 levels. The Chinese government has not agreed to carbon emission 
caps, only voluntary carbon intensity reductions.
    \136\ National People's Congress, PRC Outline of the 12th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shier ge wunian guihua 
gangyao], passed 14 March 11, issued 16 March 11, chap. 3. According to 
the 12th Five-Year Plan, China also pledged to increase the forest 
coverage rate to 21.66 percent and its forest stock volume by 600 
million cubic meters. Chapter 10(1) of the 12th Five-Year Plan 
indicates that officials also included ``energy conservation and 
environment'' and ``new energy'' among a list of at least seven 
priority ``strategic new and developing industries.'' Xie Zhenhua, 
``China's Challenges Limit Control of Emissions (Authority Forum)'' 
[Zhongguo tiaozhan kongzhi paifang jixian (quanwei luntan)], People's 
Daily, 6 January 10.
    \137\ ``China Drafting Special Law on Climate Change,'' Xinhua, 
reprinted in China Daily, 27 April 11. ``China Will Consider Climate 
Change Legislation at an Appropriate Time'' [Zhongguo jiang zai shidang 
shiji kaolu qihou bianhua lifa], Caixin Net, 9 December 10.
    \138\ Wang Qian, ``People Invited To Share Their Climate Change 
Ideas,'' China Daily, 22 March 11.
    \139\ Renmin University, ``China Human Development Report 2009/10, 
China and a Sustainable Future: Towards a Low Carbon Economy and 
Society,'' Commissioned by the United Nations Development Programme, 
April 2010, 86. ``Where public participation does exist, it is often on 
inequitable terms or does not provide adequate opportunity for public 
inputs. Little information on procedures and timing for public 
participation is available.''
    \140\ Bruce Gilley, ``Authoritarian Environmentalism and China's 
Response to Climate Change,'' Environmental Politics (forthcoming 
2012), draft version online, 22 April 11, 6-8.
    \141\ Meng Si, Chinadialogue, ``Turning Point in Tianjin,'' 25 
October 10.
    \142\ Bruce Gilley, ``Authoritarian Environmentalism and China's 
Response to Climate Change,'' Environmental Politics (forthcoming 
2012), draft version online, 22 April 11, 14.
    \143\ Barbara Finamore, ``Transparency of Climate Change Actions: 
Sitting Down With Minister Xie,'' National Resources Defense Council 
Switchboard Blog, 20 October 10. Finamore paraphrases remarks by Teng 
Fei of Tsinghua University, who outlined some of the difficulties in 
obtaining statistics relevant to evaluating energy usage and carbon 
dioxide emissions.
    \144\ Ibid.
    \145\ National People's Congress, PRC Outline of the 12th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shier ge wunian guihua 
gangyao], passed 14 March 11, issued 16 March 11, chap. 21(1).
    \146\ Barbara Finamore, ``China's Domestic Climate Commitments 
Reach a Global Audience in Tianjin,'' Natural Resources Defense Council 
Switchboard Blog, 7 October 10.
    \147\ ``China Does Not Oppose MRV, Should Find a Good Reason for 
Transferring Responsibility'' [Zhongguo bu fandui MRV, zhuanyi zeren 
yao zhaohao liyou], China Net, 12 October 10.
    \148\ Ibid. Su Wei, Director-General, Office of National Leading 
Group on Climate Change, stated the Chinese government was ``not 
opposed to monitoring, reporting, and verification'' in projects using 
international financing and technology and that China would make the 
results of its domestic MRV known to the international community and 
``can accept international discussions, consultations, dialogue, and 
clarifications.''
    \149\ Barbara Finamore, ``China's Domestic Climate Commitments 
Reach a Global Audience in Tianjin,'' Natural Resources Defense Council 
Switchboard Blog, 7 October 10. Vice Chair of the National Development 
and Reform Commission Xie Zhenhua reportedly said that China would do 
its utmost to ``increase the transparency of its actions in terms of 
tackling climate change and integrating our measure into global 
efforts.''

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
